                                          From the Inspector General
       Two decades ago, Congress approved the landmark Inspector General Act of 1978. Its goal
was to bring independent, objective oversight to the major departments of the Federal Government.

        Within the Department of Transportation, the Inspector Generals job is to conduct audits and
investigations to detect  and prevent  fraud, waste, and abuse and promote efficient and effec-
tive government programs. This is a mission very much in the public interest, given that DOT
spends more than $40 billion each year on work in virtually every community in the nation and
transportation accounts for about 11 percent of the Gross Domestic Product in the United States.
The lessons learned in our reviews, and the examples of best practices we identify, not only ben-
efit taxpayers but can be applied throughout the Department to advance the Secretarys priorities:
improving safety, making sound infrastructure investments and contributing to common-sense gov-
ernment, and DOTs 5 Strategic Goals: Safety, Mobility, Economic Growth and Trade, Human and
Natural Environment and National Security.

        DOTs Strategic Goals are linked to its Performance Plan, which has been rated as the best
in government. The challenge now is to implement the Strategic and Performance Plans and achieve
results. Those results will have real effects on real people  such as helping save many of the more
than 42,000 lives lost in transportation-related accidents annually. We know infrastructure absorbs a
significant share of our public spending and contributes to mobility. And using common sense as
the criteria for assessing government  or almost any enterprise  is as refreshing as it is effec-
tive. OIGs work also supports the Secretarys One DOT initiative, which speaks to issues encom-
passing all modes of transportation, such as human-factor effects on safety.

        The Inspector General Act requires publication of our Semiannual Report to the Congress,
which recaps OIGs work of the past 6 months. In the interest of making the report more usable to
its readers, this Semiannual Report incorporates several new features:

              oIt describes  in brief summaries, organized month-by-month  a more complete
              array of audits, evaluations and investigations conducted by this office than have been
              presented in the past. Complete versions of the audits summarized in this report are
              available on the Internet  along with other information about the Office of Inspector
              General  at http://www.dot.gov/oig

              oWe have created a Focus section, which explores in more depth four issues of
              major significance to the Department of Transportation. They are the Year-2000
              computer problem, modernization of the Federal Aviation Administrations Air Traffic
              Control operations, trucking industry safety and the condition of the Departments
              financial records. Our look at these issues is found on pages 2-9.

              oFor a more comprehensive list of our ongoing and planned work, see the graph on
              pages 42-43. It illustrates the relationship of our efforts now under way with key
              elements of the Departments Strategic Plan.
        The past 6 months have been highly productive in the Inspector Generals office. Our work
has helped strengthen the Department and its operating agencies by promoting safety, efficiency and
integrity in DOT programs. We are working closely, and constructively, with Department officials
and the Department of Justice while maintaining the independence legally required of OIG. During
the period covered by this report, OIG issued 106 audit reports with total financial recommendations
of $625 million, largely agreed to by the Operating Administrations audited. Investigations led to 45
indictments, 42 convictions and $9.5 million in monetary recoveries  fines, restitution orders,
judgments and recoveries.

        To do our job better, we have made major changes in OIGs organization and operations. In
addition to deploying a strong team of auditors, evaluators and investigators in new ways, we are
adding depth to OIG by hiring new staff with skills in a variety of disciplines  economics, finan-
cial services, public policy and computer services.

        The statutory Inspectors General of the various Federal departments make up the Presidents
Council on Integrity and Efficiency (PCIE). IGs designated by heads of other agencies form the
Executive Council on Integrity and Efficiency (ECIE). The groups are engaged in an important dia-
logue this year, the 20th anniversary of the law that brought the IGs into existence. It was our priv-
ilege to be the lead organization for the PCIE/ECIE annual conference. At the 2-day session, mem-
bers and guests explored such topics as the relationship among Inspectors General, Congress and
the Executive Branch; investigative procedures; best practices within our own shops; and the role
of Inspectors General in implementing the Government Performance and Results Act. We were hon-
ored by the participation of Attorney General Janet Reno, Transportation Secretary Rodney Slater,
Health and Human Services Secretary Donna Shalala, Maryland Congresswoman Connie Morella,
Chairwoman of the Technology Subcommittee of the House Science Committee, Federal Aviation
Administrator Jane Garvey and former Texas Congressman Jack Brooks, Chairman Emeritus of the
House Judiciary and Government Operations Committees  not to mention colleagues from 64
offices within the IG community.

       The Office of Inspector General is positioned to be a proactive force for constructive change
across the Department. But we will only make solid gains in safety and performance by working
with the people who administer the programs, the lawmakers who write the programs and the peo-
ple for whose benefit the programs exist. On behalf of my colleagues at DOTs Office of Inspector
General, I would like to thank Transportation Secretary Rodney Slater, Deputy Transportation
Secretary Mortimer Downey, the Operating Administrators and Members of Congress for their con-
tinuing cooperation with, and responsiveness to, our work.



                                                 Kenneth M. Mead
                                                 Inspector General
Major Audits and Investigations                  1


Focus: 	 Year-2000 Computer Problems             2
         Air Traffic Control Modernization       4
         Trucking Industry Safety                6
         Financial Statements                    8

October 1997                                     10
November 1997                                    12
December 1997                                    16
January 1998                                     20
February 1998                                    22
March 1998                                       26

Table: Fiscal Year 1998 Staffing Authorization   30

Organization/Management                          31


Chart: OIG Organization                          31

Table: Summary of Performance                    32

Table: Completed Audits                          33
                                                       Contents

Table: Management Decisions                                   34

Table: Recommendations/Costs Questioned                       35

Table: Recommendations/Funds
           to Be Put to Better Use                            36

Table: Recommendations for Safety,
           Economy or Efficiency                              37

Table: Status/Unresolved Audit Recommendations                38

Charts: Audit and Investigative Resource Application          39

Table: Profile of Pending Investigations                      40

Table: Judicial Actions                                       41

Table: Administrative Actions                                 41

Table: Ongoing and Planned Audits
           and Evaluations                                    42

List of Audits                                                44

                                              Major Audits

                                                        and
                                             Investigations

The Office of Inspector General includes a staff of auditors and evaluators who review
the programs and operations of the Department of Transportation to help its managers
improve them. Some audits focus on financial issues; others review the effectiveness of
programs. The Inspector Generals staff also includes investigators who build criminal
cases against those who break transportation-related laws  ranging from trucking
firms that force drivers to work too many hours without rest and haulers who illegally
transport hazardous materials to vendors who traffic in illegal, unapproved aircraft
parts.

Many factors go into determining what to audit. Some audits are required by law.
Others are requested by key decisionmakers, such as the Secretary of Transportation,
heads of the Operating Administrations within DOT or Members of Congress. The OIG
audit agenda is also based on the past experience of an audited entity, the strategic goals
of DOT, and priorities established each year by OIG itself. Many times, auditors, eval-
uators and the Inspector Generals investigators work together closely to ensure that a
program financed with Federal money is conducted both honestly and efficiently. The
IG Act requires the Department to provide the IG with all requested information and for
the IG to report any instance where access was denied. No information requested by
OIG was withheld by DOT officials during the 6 months covered in this report.

Information for OIG investigations also comes from many areas. DOTs Operating
Administrations and State government officials often will refer tips or information about
suspicious activity to OIG Special Agents for investigation. Those agents build the
cases, executing search warrants as needed and making arrests in the process. The
majority of cases are prosecuted by United States attorneys in Federal courts.

Another source of investigative direction is the Office of Inspector General Hotline, an
800 number that lets citizens  including Federal workers  have direct access to
OIG staff. The number is 1-(800)-424-9071. Hotline users are not obliged to disclose
their identities and whistle-blowers within the Government are protected from
reprisal by Federal law.

                                    1
Focus:

            Objective: Helping the Department of Transportation 

                       ensure continuity of operations


 Back in the 1960s and 1970s, when artificial intelligence was just starting to be a household com-
 modity, programming computers to use only the last two digits of a year to stand for that year was
 an efficient, common-sense thing to do. The designation became an industry standard.

 But as the widely computerized world entered the 1990s, it became apparent that standard could
 set computers up for system failure or data error. Computers so programmed cannot distinguish
 between the year 2000, designated 00, and 1900, which would carry the same designation.
 Executives throughout government and business learned they were dealing with a costly problem
 coupled with a tight deadline. Even components containing computer chips may be affected.

 In U.S. transportation, the potential effects are far-reaching. Computers are at the heart of FAAs
 air traffic control system. Computers set timetables for trains and subways, help officials manage
 highway traffic and help the Coast Guard track boats carrying illegal drugs. Computers process
 infrastructure project construction grants. Further, the problem reaches beyond national borders.
 Year-2000 issues have enormous ramifications for international air traffic control, surface trans-
 portation and ocean shipping.
                                                                     A sense of urgency
 The work of the Office of Inspector General has played an important role in assessing the scope
 of DOTs Year-2000 Problem. In testimony by the Inspector General before two House
 Subcommittees, and in three separate reports by OIG auditors, the Departments efforts have been
 reviewed. OIG has been helpful in spurring a sense of urgency within DOT as it faces the press-
 ing issue, formulating concrete plans to fix problems identified.

 o In November, OIG found that FAA had allowed too little cushioning for schedule slippage in
 its plan to assess and correct any Year-2000 problems. FAA had planned to fix its computers by
 the end of October 1999. OIG urged that the work be concluded by June 1, 1999 (report FE-1998-
 027).

 o In December, OIG evaluated the Departments overall Year-2000 strategy, and the strategies of
 its component Operating Administrations. OIG found the Department behind schedule in com-
 pleting its assessments, which must precede any fixes. OIG also found a lack of a formal
 Department-wide plan, coupled with a lack of staff support in DOTs office of the Chief
 Information Officer; omission of more than 300 computer systems from the Departments Year-
 2000 inventories; significant overstatement of what had been assessed in DOTs proposed August

                                              2
   Year-2000 computer problems



November 1997 reports to the Office of

Management and Budget; inadequate

proof that 43 systems deemed Year-

2000-ready were; unreliable, insupport-

able cost estimates for Year-2000 fixes

(of $92 million in May 1997 and $266

million in August 1997); and lack of

Year-2000 language in five operating

administrations computer contracts

(report FE-1998-053).



o In February, the Inspector General

testified before the Technology

Subcommittee of the House Science

Committee and the Government

Management,         Information      and

Technology Subcommittee of the House

Government Reform and Oversight

Committee, basing his comments on

audit report FE-1998-068. He testified

that the FAA needs to strengthen its strategies to ensure the functioning of a crucial air-

traffic-control computer, designate central leadership for Year-2000 work, firm up cost

estimates, set more realistic schedules for making fixes, and include Year-2000 consider-

ations in projects under development.



FAA has agreed to move its target date for Year-2000 readiness to June, 1999. The agency

has improved planning, tracking, and staffing, including use of an independent contractor.

The aviation agency also has named a Year-2000 manager who reports directly to FAAs

administrator, and the agency is developing a Year-2000 master schedule for air traffic

control. FAA has decided to begin to replace its HOST air traffic control computer system

immediately, at an estimated cost of $190 million in fiscal years 1998 and 1999. DOT also

has agreed to take more rapid inventory of Year-2000-affected equipment in the Maritime

Administrations fleet of ready-reserve ships.    


                                                   3
Focus:





     Objective: Helping the Federal Aviation Administration make

                      more effective acquisitions

  The Federal Aviation Administration is upgrading equipment crucial to modernization of its air
  traffic control functions. This effort fits squarely into two of the Transportation Secretarys
  strategic objectives: enhancing safety and ensuring wise infrastructure investment. Since its
  inception, the modernization program has experienced cost overruns and schedule delays. To
  mitigate these problems, the FAA Administrator has named a task force, including senior DOT
  officials and aviation-community executives and experts, aiming for consensus on objectives
  and priorities.

  Three areas  all subjects of ongoing Office of Inspector General review  are central to
  FAAs modernization efforts: the Standard Terminal Automation Replacement System
  (STARS), replacement of FAAs HOST computer system, and the Wide Area Augmentation
  System (WAAS).
                      Making equipment work safely and efficiently
  FAAs $940 million Standard Terminal Automation Replacement System will replace displays
  (see photo above), software, and computers in 172 terminal air traffic control facilities. It is
  first slated to go into service in Boston in December 1998. OIG concluded that FAA is not like-
  ly to meet that date; further, development costs are likely to increase (report AV-1998-012). We
  found that important human factors, pertaining to the way controllers and maintenance tech-
  nicians physically use the equipment, were only looked at late in the STARS development
  process, in part because of an aggressive procurement schedule.


                                              4
Air traffic control modernization

As one example, the proposed software used windows that could obscure images of air-
craft on the screen, which controllers need to track continuously. In another, a keyboard con-
figuration was different from that of current equipment. Such factors could reduce controller
efficiency. OIG also identified software development, system testing and user training as
areas likely to make system delivery late.

Following an October presentation on OIGs findings before Congress, FAA concurred with
our recommendations. In December, FAA evaluated human factors in STARS with air traf-
fic controllers and in January with maintenance technicians. Those teams identified 98 con-
troller issues and 106 maintenance issues; solutions are being implemented.


                                             New and improved computers
                                                      in air traffic control
FAA uses a computer system known as HOST in 20
control centers that monitor high-altitude air traffic.
Though the systems replacement was not slated to be
complete until the year 2004, HOST cannot be certified
free of Year 2000 problems. Of equal importance is
the lack of availability of a crucial HOST part known
as the thermal conduction module, or TCM (pictured at
right). The part, which cools the processor, no longer is
being made, and only six spares of the key module are
known to exist. Meanwhile, TCMs are failing at an
increasing rate. FAA has decided to attempt to replace
the HOST system immediately  at an estimated cost
of $190 million in fiscal years 1998 and 1999  and
also make the existing equipment Year-2000 compli-
ant.
                                                            Navigation by satellite
The Wide Area Augmentation System, which would use global positioning system satellites
for aircraft navigation, is scheduled for initial operation late in 1999. FAA expects WAAS to
be fully operational in late 2001. But major questions remain unanswered. FAA is not yet
certain how many communications satellites will be needed to make the final system work
and how to protect WAAS from accidental or intentional interference. Answers to those
questions will affect cost and scheduling. The systems life-cycle cost, through the year
2016, is more than $3 billion.
                                                 5
Focus:





      In the United States, there are more than 6.7 million single-unit
      and tractor-trailer trucks. Recent figures show that on average,
      there are more than 1,000 accidents per day involving such
      trucks. Interestingly, the majority of truck crashes occur in good
      weather conditions (82 percent), on dry pavement (78 percent)
      and during daylight hours (65 percent). Safety is the top priority
      of the Department of Transportation, the Federal Highway
      Administration and the Office of Inspector General. All are
      working to reduce crash rates involving vehicles of all types, and
      to that end OIG is engaged in significant work this year on truck-
      ing safety -- notably pursuit of truckers who falsify their daily
      trip logs and training Federal and State truck inspectors.




                                      6
                    Trucking industry safety

               Objective: Strengthening motor carrier safety



                                                       Fraudulent logs of drivers
                                                               hours on the road
One of OIGs investigative priorities is truck driver log fraud, in which drivers of large com-
mercial trucks  often at the instigation of company owners or managers  falsify their daily
trip logs to misstate their hours behind the wheel. Federal regulations limit the number of hours
truckers can drive without rest because fatigue is a significant factor in human errors that cause
accidents and fatalities. Current standards call for no more than 10 hours of driving followed by
8 hours of rest. Some of our investigations have found truckers behind the wheel after as much
as 34 hours without a break for rest. Currently, OIG has 26 open investigations of trucking-log
violations. During the 6 months covered in this report, convictions or guilty pleas in such cases
prompted 8 indictments, 1 conviction and $67,000 in fines or restitution.

Concern about the prevalence of log fraud also prompted OIGs legal counsel, as part of a new
regulatory proposal, to urge the Federal Highway Administration  which now requires truck-
ing firms to keep such logs for six months  not to reduce that time period to 4 months. OIG
was concerned that the proposed change could make discovery and prosecution of perpetrators
more difficult. OIG asked that the logs remain on file for the longer period, to increase the like-
lihood of auditors or investigators detecting falsified records and to have them available through-
out prosecution. The records retention period has remained at 6 months.
                                                          Special training in
                                         surface transportation investigation
Office of Inspector General auditors and investigators have conducted 24 courses across the
nation since January to inform State and Federal truck inspectors of OIGs role and special ini-
tiatives now under way. Thus far, about 600 officials of State governments and the Federal Office
of Motor Carriers have learned of OIGs authority in the area, its current priority regarding log
fraud and tracking illegal transportation of hazardous materials by truck, and OIGs audits of
trucking-related activities.

The interagency training courses have been well-received  with spirited discussions at some
locations  and five more are planned in the next 2 months. In the courses, OIG staff advise
other inspectors of its availability as a separate investigative arm including law enforcement
authority to execute search warrants and make arrests. By sharing related agencies resources,
OIG can add value to other agencies efforts.
                                              7
Focus:

      Objective: Helping the Department of Transportation present 

                         businesslike accounts

  Successful business firms audit their books to make sure their accounting records and inventories
  are in good order so needless, wasteful spending does not occur. Successful governmental enti-
  ties do the same  and financial accounting that meets basic standards now is a requirement of
  the Chief Financial Officers Act, passed in 1990 and amended in 1994 by the adoption of the
  Government Management Reform Act.

  The Office of Inspector General recently audited the financial statements of the Department of
  Transportation overall and, in separate audits, the Highway Trust Fund and the Federal Aviation
  Administration. From these audits, the Inspector General drew the following conclusions:

        o The Department has made significant progress in detailing what funds it received and
        how they were disbursed;

        o There are inventory problems amounting to $25 billion within two agencies  the
        Coast Guard and FAA  involving tracking of physical property and real estate;

        o The cost-accounting system recommended by the National Civil Aviation Review
        Commission for FAA to become a performance-based organization (one that
        assigns its fees based on costs) now being developed will not function properly until
        FAA produces accurate data; and

        oAccounting problems with the Treasury Departments stewardship of highway and
        aviation trust funds need to be addressed before DOT can receive an unqualified
        (or clean) opinion on its financial statements.

  In our audit of DOTs Consolidated Financial Statements, OIG found that DOT made good
  progress addressing deficiencies in its financial operations, but needs to do more to implement
  33 of 77 recommendations we made in our Fiscal Year 1996 audit. DOT still needs to make com-
  prehensive physical inventories of property reported to be valued at more than $25 billion. Due
  to a lack of supporting records, proper inventory practices, and unsupported estimates, OIG did
  not express an opinion on the fairness and reasonableness of DOTs consolidated statements,
  referred to as a disclaimer of opinion among auditors.

  The Coast Guard, however, completed an inventory of equipment valued at $5.1 billion and the
  Maritime Administration properly valued the ships in its National Defense Reserve Fleet, at $932
  million. An inventory of spare parts should be done at both FAA and the Coast Guard. The Coast

                                             8
                                         Financial statements

Guard also needs a more reliable estimating method for calculating its annual pension liability.
It is noteworthy that some information needed to make a thorough audit of the Departments
financial statements is outside DOTs control because it comes from the Treasury Department.
That agency keeps track of, and periodically disburses, tax revenues that support DOT programs,
particularly the Highway Trust Fund and the Airport and Airway Trust Fund, which helps finance
the FAA. We recommended that the Secretaries of Transportation and the Treasury, the General
Accounting Office and the Deputy Controller of the Office of Management and Budget require
auditing of the accounting, estimation, certification and investment of tax revenues.

In our audit of the Fiscal Year 1997 financial statements of the Highway Trust Fund, we found
the operating administrations affected  the Federal Highway Administration, the Federal
Transit Administration, the National Highway Traffic Safety Administration and the Federal
Railroad Administration  had properly processed, adjusted, and reported Highway Trust Fund
transactions they controlled. They also did an excellent job correcting weaknesses identified in
our audit report for the previous fiscal year.

In our current report, however, we were unable to issue an unqualified (a so-called clean) opin-
ion on the trust fund statements, again because of the difficulties at the Department of the
Treasury in verifying excise tax revenues that go into the trust fund.

Finally, the Office of Inspector General audited the financial statements of the Federal Aviation
Administration for the fiscal year ending September 30, 1997. During Fiscal Year 1997 FAA cap-
italized $2.6 billion in equipment purchase costs that had been expensed in error; verified the
existence of $1.2 billion worth of buildings, land and structures; inventoried its Logistics Center;
and reconciled budget information reported to the Department of the Treasury. Nonetheless, OIG
issued a disclaimer of opinion, because the information available was not sufficient to support
the financial data reported.

Though OIG made no new recommendations to FAA following the disclaimer, we did urge FAA
to provide our auditors adequate information to assess the fairness and reasonableness of its
financial statements. A year ago, in an audit of FAAs Fiscal Year 1996 financial statements, we
made 35 recommendations; 21 still need corrective work. FAA currently is developing a cost-
accounting system based on National Commission for Civil Aviation Review recommendations,
and has recently proposed making FAA a performance-based organization. But that systems
information will not be reliable until FAA makes corrections.

FAA also relies on Treasury for accounting information to complete its financial statements.
Resolution of the questions about financial information will help FAA, FHWA and DOT reach
unqualified (clean) audit status.


                                                    9
                 Congress hears OIG testimony on

                 new air traffic control equipment

                 In testimony that later became an OIG audit report (AV-1998-012), the
                 Inspector General told the House Appropriations Subcommittee on
                 Transportation that there were significant human factor problems with
                 the Standard Terminal Automation Replacement System, or STARS, an
                 air traffic control system the FAA plans to bring on line late this year. Air
                 traffic controllers and maintenance technicians identified the problems.
                 Following testimony, Subcommittee Chairman Frank Wolf asked Mitre
                 Corporation to facilitate talks among FAA, the controllers and the tech-
                 nicians. As a result, potential solutions were identified and such issues
                 will be addressed earlier in future acquisitions.


Defendants sentenced in fuel tax
evasion scheme
Three Georgia men were handed sentences in U.S. District Court ranging from 4 to
6 months for their involvement in a scheme to evade motor fuel excise taxes used
to finance highways. William D. Forrester, Glenn Russel David and Randall C. Eli
had received kickbacks totaling more than $430,000 in the arrangement. In addi-
tion to their sentences  to home detention  the defendants, who pleaded guilty
to tax evasion, were placed on probation for 30 to 32 months. Forrester and Eli
were ordered to pay back taxes. Forrester was fined $20,000 and David was fined
$10,000. The case was jointly investigated by the Office of Inspector General, the
Internal Revenue Service and the Georgia Bureau of Investigation.


                   OIG identifies diverted airport funds;
                   Los Angeles promptly repays
                   At the request of the Federal Transit Administration and as required by
                   Congress through appropriations legislation, OIG audited Los Angeles
                   International Airport. We found that between February and mid-
                   September of 1997, nearly $1.4 million had been diverted from the air-
                   port to the city related to police services, rent-free use of airport prop-
                   erty, parking citation revenue and support services. Following our
                   report (AV-1998-021), city and airport officials arranged for repayment
                   to the airport and agreed to avoid future diversions.

                                     10
                                                       October 1997

FAA: Prevent sexual harassment, reduce case backlog
OIG took a look at sexual harassment cases involving Federal Aviation Administration
employees (report MA-1998-022). Of 83 cases reviewed, 39 were still open, 36 had been
closed and 8 were under appeal. One-third of the closed cases resulted in findings of dis-
crimination, with 10 settled and 2 informally resolved. Of the open cases, 28 of the 39
originated in FAAs Air Traffic Control section. On average, the cases had been open 454
days, though one unresolved case had lasted 1,001 days longer than that. OIG recom-
mended that FAA develop basic sexual harassment training requirements.




                         Embezzler caught, jailed, fined
                         An Office of Inspector General investigation led to the apprehension,
                         plea and incarceration of William S. Stewart, who had once worked for
                         the Federal Aviation Administration in Denver as an imprest fund
                         cashier. Stewart pleaded guilty to the embezzlement of more than
                         $25,000 from FAA through duplication of invoices. He was sentenced
                         by a U.S. District Court judge to 8 months in jail, followed by 3 years
                         probation.




Traffic in substandard aviation parts spurs guilty plea
An OIG investigation led to a plea of guilty to a single count of mail fraud by principals
of Transpec Fasteners, Inc. of Fort Worth, Texas. Transpec, which supplied aircraft fas-
teners to the Department of Defense and to private firms for commercial use, acknowl-
edged through its guilty plea that it had sold substandard parts. Following a Federal
indictment filed in Philadelphia, the U.S. District Court fined Transpec $120,000. OIG
was joined by the FBI and several Defense Department investigative agencies in the
probe.

                                           11
                         Ohio River towboat firm sentenced
                         A towboat company that dumped oily bilge slop and other wastes into
                         the Ohio River for 21 years and its former vice president were fined
                         more than $270,000 by a Federal judge in Cincinnati following a joint
                         investigation by OIG, the FBI, the Coast Guard and the Environmental
                         Protection Agency. M.G. Transport Services was fined $250,000 and
                         its former vice-president, Harshel J. Thomassee, was fined $22,500.
                         The firm had operated hundreds of barges and towboats on the Ohio,
                         where dumping of bilge residue, burned wastes and industrial waste
                         took place between 1971 and 1992.

Congressional committee hears analysis
of runway incursions
OIGs analysis of FAAs Runway Incursion Program was the focus of Inspector General
testimony before the Subcommittee on Aviation of the House Committee on
Transportation and Infrastructure. The programs purpose is to reduce near-collisions
between planes and other planes, or planes and other vehicles on runways. OIG found the
program has not been effective in reducing such incidents. OIG found there were 204
incursions in 1994 and 318 in 1997. The original goal was to reduce incursions to no
more than 41 by the year 2001; that has been changed to 270 by the year 1999 and a goal
for the year 2000 has not yet been established. The Inspector General said FAAs plan isnt
working as intended. OIG recommended that FAA implement portions of the plan not car-
ried out, review it and increase focus on local plans to remove hazards unique to individ-
ual airports.

                         Coast Guard: Reduce firearms inventory
                         OIG recommended that the U.S. Coast Guard divest itself of numerous
                         small arms and rethink the necessity of converting all its M-16 rifles to
                         a new standard. The review assessed operations at the Coast Guards
                         Crane, Indiana facility for small-arms repair and storage. In the report
                         (MA-1998-017), we found that the shop held more than one-third of the
                         Coast Guards 20,000 rifles, machine guns, pistols and shotguns. OIG
                         found that many guns arrived as Coast Guard units were trimmed. One-
                         third of the M-16 rifles the facility planned to adapt for new ammuni-
                         tion use could be withheld from the conversion, saving up to $487,000.
                         The Coast Guard, under the terms of its contract with the supplier,
                         may instead send M-16 conversion kits to the Department of Defense.

                                            12
                                                 November 1997

FAA: New priorities needed in airport inspections
An Office of Inspector General review of FAAs airport inspection program (report AV-
1998-025) led to a recommendation that personnel be directed to airports with past prob-
lems or airports with significant use by the public. We found that the 50 inspectors in the
program sometimes checked and rechecked airports used by relatively few travelers or air-
ports where past inspections had resulted in clean reports  while busier facilities, or
those with problems in past checks, got less frequent checks. FAA agreed to factor in air-
port usage and prior inspection results in setting future schedules. FAA checks 575 airports
for compliance with standards for facilities, equipment and operating conditions.




                        Trucking firm dissolved in ghost drivers case
                        A 6-month jail term, 6 more months of home confinement and a $2,000
                        fine were not the only penalties levied against the owner of Redi
                        Transportation Inc., an Indianapolis-based interstate trucking firm. A
                        U.S. District Court judge in Indianapolis also ordered Charles Jordan, as
                        part of his plea agreement, to dissolve the firm and stay out of commer-
                        cial trucking for at least 2 years; he was placed on 3 years probation. In
                        an investigation conducted by the Office of Inspector General and the
                        Federal Highway Administrations Office of Motor Carriers, Jordan
                        pleaded guilty to conspiracy in causing truck drivers for the firm to false-
                        ly list ghost drivers in their drivers logs to conceal the fact they drove
                        hours in violation of DOT limits.



Two firms guilty in disadvantaged-business fraud scheme
Two firms  one based in Ohio, the other in West Virginia  were found guilty by a jury
of conspiracy, making false statements and wire fraud in connection with a scheme to
misuse the Federal Disadvantaged Business Enterprise program. The case was investi-
gated by OIG following referral by West Virginia State authorities. Brothers
Construction Co. of Columbus, Ohio, which had disadvantaged status, entered into a
secret agreement to have a non-certified firm do its work in a subcontract for Tri-State
Asphalt of Wheeling, West Virginia. Tri-State was aware of the misrepresentation. Brenda
Ware, president of Brothers, also was found guilty in the case.

                                            13
      Aircraft parts dealer jailed, barred from
      business for 3 years
      A Florida man was sentenced to 5 months in jail and 5 months additional home
      confinement, and barred from the aircraft parts business during a 3-year supervised
      release, after he admitted to selling unapproved aircraft parts at a high profit. The
      case against Ronald H. Drellich was investigated by the Office of Inspector General
      at the request of the Federal Aviation Administration. Drellich told investigators his
      firm, Federal Air Accessories of Hollywood, Florida, had machine shops manufac-
      ture generator parts for use on commercial aircraft, and sold them as FAA-approved
       which they were not  for a markup of more than 1,000 percent.



                         DOT: Tighten controls in photography division

                         Pursuing a tip that came in through the Office of Inspector General
                         Hotline, OIG reviewed property records maintained by the photography
                         section of DOTs Transportation Administrative Service Center (TASC).
                         We found that 31 items, valued at $16,479, were disposed of or traded in
                         and deleted from TASC records without proper approvals. Another 11
                         items in use, worth more than $7,000, were not properly entered into
                         property records. Photographers were allowed to remove equipment
                         from a central pool without recordkeeping and equipment trade-in prac-
                         tices were subject to abuse. In our report (MA-1998-028) OIG recom-
                         mended corrections, and the director of TASC agreed.

Texas city required to
reimburse diverted airport funds
Following an OIG audit of spending practices in Big Spring, Texas, at its McMahon-
Wrinkle Airpark, the city transferred more than $1.2 million to the airport after that sum
was found inappropriately diverted to non-airport uses. Action on another $679,000 is
pending. The audit (report AV-1998-026), requested by FAA, found that the city had
diverted $1.2 million in airport revenues for construction not related to aviation; had spent
more than half a million dollars on firefighter costs when only 13 percent of those employ-
ees fire calls were on airport property; and did not pro-rate the wages of city workers
whose airport work was only part-time, at a cost of $27,000. The city also lacked a fee and
rental structure that met FAA guidelines and owes the airport at least $122,000 for lease
of airport property. The city has begun implementing the recommendations.
                                            14
                                                 November 1997

FAA: Revenue diversions, Scholes Field, Galveston, Texas
The City of Galveston, Texas was not in compliance with FAA grant assurances requiring
a fee and rental structure and that airport-generated revenues be used for the operating and
capital costs of Galvestons municipal airport, Scholes Field. We found (report AV-1998-
011) that city officials had not updated the fee and rental structure since 1983, did not
have a basis for lease rates used, and permitted airport property to be used without lease
agreements and compensation. Consequently, the city owes the airport $360,871 for
rental fees not charged, lease rates not escalated, and services not provided.




                                            15
FAA: Eliminate linkage between
free training and enforcement actions
We found FAAs agreements to have the aviation industry test qualifications of pilots and
other flight personnel diminished FAAs ability to enforce safety regulations (report AV-
1998-042). FAA often delegates authority for tasks it oversees to others  in this case, to
regulated carriers to test pilots for qualification. One FAA staffer said such an agreement
kept him from seeking an enforcement action when circumstances and prudence would
have required one. OIG urged FAA in future training pacts to avoid agreements that pre-
clude FAA from fulfilling its inspection and oversight duties. The FAA Administrator
agreed with the findings.


                       Aircraft Parts Traffickers Get 26 Years
                       Jose Costales Jr. was sentenced to 12-1/2 years in prison plus 3 years
                       supervised release and was ordered to make $1.3 million in restitution,
                       following his conviction on aircraft-endangerment charges. He was con-
                       victed in September in U.S. District Court for the armed robbery of an
                       FAA-certified repair station in Miami, Florida; for communicating false
                       information which endangered the safety of an aircraft; for illegally
                       transporting stolen aircraft parts; and for mail and wire fraud. Parts taken
                       in the robberies (such as the fan blade at left) were later sold, sometimes
                       through two Miami parts and repair firms Costales owned. Also sen-
                       tenced in the case were Luis and Loid Suarez, each sentenced to 7 years
                       and 3 months imprisonment and 3 years supervised release. OIG inves-
                       tigated the case with the FBI, the Metro-Dade County Police and the
                       Drug Enforcement Administration.


FHWA: Authorize use of idle
highway funds quickly
A review of four states unspent funds from finished or inactive highway projects sug-
gested more could be done to bring up to half a billion dollars back into the spendable
pool. OIG (report TR-1998-045) reviewed unspent funds in California, Georgia, New
York and Maine  four states accounting for more than $1.2 billion of the $4 billion in
unspent highway funds. Based on reviews of 80 randomly selected projects, OIG found
that the Federal Highway Administration should prevent large buildups in excess fund
accounts and check sooner to see if funds could be redeployed. FWHA officials agreed
with the findings.

                                           16
                                                          December 1997

More than $30,000 bilked in
taxi subsidy scheme
A San Antonio, Texas taxi passenger who had conspired with a Yellow
Cab driver in a fund-bilking scheme pleaded guilty in U.S. District
Court to one count of fraud. Diana K. Meinen was ordered to make
restitution of $14,800 and placed on probation for 5 years. The case was
investigated by OIG and the FBI. Meinen pleaded guilty to allegations
she conspired with the driver to submit false vouchers to the San
Antonio Transit Authority under a Federally subsidized program to
transport the elderly and handicapped. The taxi driver, Stanley Evans,
also pleaded guilty and was ordered to repay $16,500, serve 4 months
in home confinement and serve 5 years probation.


      Maritime Administration: halt loan guarantee
      until terms are met
      In an attempt to revitalize a closed shipyard, shipbuilder Massachusetts Heavy Industries
      had applied for a MARAD Title XI loan guarantee of $55 million. Because the loan was
      for renovation of an entire shipyard  with uncertain work and revenues  OIG was
      asked by the Chairman of a Senate committee to ensure that MARAD held the company
      to Title XI loan guarantee requirements. After extensive review, OIG recommended that
      MARAD ensure that the company meet all stipulations in the letter of commitment.
      MARAD complied and made the guarantee. When anticipated contracts for the shipyard
      did not materialize, OIG called on MARAD in report MA-1998-048 to reassess the appli-
      cations risk of default immediately upon the closing of the application.


Coast Guard: Collect fees for riverboat
casino inspections
OIG found private operators of riverboat casinos sometimes failed to
pay required up-front user fees for U.S. Coast Guard safety inspections
of their vessels (report MA-1998-040). The inspections were found to
be thorough and timely. Out of 64 riverboat casinos inspected and grant-
ed certificates, 10 owners didnt pay inspection fees totaling $36,675.
Coast Guard inspectors said they kept inspecting because they werent
sure payment records were accurate; OIG sampling showed that con-
cern was unwarranted. The Coast Guard was urged to set user fees for
all its inspection services and levy civil penalties on inspectees who fail
to pay. The Coast Guard stated it would take corrective action.

                                                   17
     FAA needs closer regulation of third-party drafts
     OIG looked into FAAs compliance with a 1995 Transportation Department order to close
     imprest funds, pools of money for cash advances to employees for such purposes as
     business travel (report FE-1998-044). Regulated Government credit cards, direct deposit
     or Treasury checks were to be used instead. While FAA had closed out its 413 imprest
     funds, totaling about $1.3 million, the audit found that third-party drafts were excessively
     used by the agency without adequate controls. A third-party draft is a check-like instru-
     ment, drawn against and paid by an outside contractor or financial institution. FAA indi-
     cated it will be shifting toward credit-card use and plans to minimize use of third-party
     drafts.




Plea entered in scheme to provide
un-airworthy windshields
Perkins Aircraft Services, Inc., of Fort Worth, Texas, pleaded guilty in
Federal court to making false statements in a scheme to supply aircraft
windshields falsely represented as airworthy to the U.S. Coast Guard. The
windows, which did not meet FAA regulations, were for 14 of the Guards
Falcon 20 aircraft. Sentencing is pending. The case was jointly investigat-
ed by OIG, the FBI and the Defense Department.




          Coast Guard: Former cashier loses job
          in alleged embezzlement

          Following a joint investigation by OIG and Coast Guard investigators in New
          Orleans, a civilian employee of the Coast Guard entered into a pretrial diversion
          agreement in connection with the alleged embezzlement of $12,623 from the Marine
          Safety Office in New Orleans. Pretrial diversions let alleged offenders avoid prose-
          cution if they comply with terms of an agreement and stay out of trouble in the
          future. Under supervision of the court, the former cashier accepted termination from
          her job and agreed to make full restitution within a year.

                                                 18
                                                 December 1997

Data processing management reviewed
Reviewing compliance with the Office of Management and Budgets call for consolida-
tion of data centers, the Office of Inspector General found that DOT complied with Office
of Management and Budget requirements in consolidating its data centers. However, DOT
needed to improve its information technology plan. Specifically, OIG called on chief
information officers throughout DOT to add baseline parameters for cost, schedule and
performance goals and build in problem alerts. In the review (report FE-1998-049),
OIG also called for a cleanup of recordkeeping in information technology plans, to end
incomplete or redundant entries. OIG also sought better internal communication among
information technology personnel. DOTs acting chief information officer concurred with
the findings.




                                          19
                       First prosecution of cylinder-testing violation
                       A Roswell, New Mexico oxygen-supply firm, its owner and its manager
                       pleaded guilty in U.S. District Court to violation of the Federal
                       Hazardous Materials Transportation Law. Sentencing is pending.
                       American Oxygen Company, Inc., its owner Chester Smith and manager
                       Keith Smith were the first defendants charged under the cylinder-testing
                       section of the act. The firm was accused of claiming its oxygen cylinders
                       had been tested for metal strength when they were not. Cylinders with
                       flaws pose a safety threat when filled with compressed gas. Customers
                       of the firm included such organizations as fire departments and hospitals.
                       OIG was joined in the investigation by the FBI and the Transportation
                       Departments Research and Special Programs Administration.

Air traffic controller workforce labor agreements
Our audit (report AV-1998-061) found that FAA facility managers were not held account-
able for cost or staffing implications of agreements they made with the controllers union,
known as the National Air Traffic Controllers Association or NATCA. Further, managers
were not given necessary training or help from labor relations experts when they negoti-
ated complex issues. During our audit, FAA began to address some points we identified
including official time granted for union activities, training, access to labor relations
expertise, and management oversight. The steps will be important in helping FAA man-
age its resources while maintaining valuable controller input on such matters as air traf-
fic modernization. The work will also be important should Air Traffic Services be con-
verted to a performance-based organization.

                        Penalty of half a million dollars follows
                        fireworks warehouse fire
                        Neptune Fireworks of Dania, Florida paid a fine and restitution totaling
                        $500,000, while president Itzhak Dickstein and two managers were sen-
                        tenced for the illegal handling and transportation of fireworks. Neptune
                        had baled fireworks with cardboard, which ignited at a recycling facility.
                        The half-million-dollar levy against the firm included payment to victims
                        of the resulting fire and $125,000 to 5 fire departments. The firms
                        warehouse manager, Mark Williams, was jailed 5 months and sentenced
                        to another 5 months home confinement and 3 years supervised release.
                        Dickstein and Operations Manager Leslie Grimes each were sentenced to
                        6 months home confinement; Dickstein was placed on 3 years super-
                        vised release and Grimes, on 1 year of supervised release. Dickstein also
                        was fined $20,000.
                                           20
                                                                 January 1998

       Hotline tip leads to improved working
       conditions at Union Pacific
       In a tip to the OIG Hotline, a complainant said the Union Pacific Railroad was subjecting
       engineers to irregular and excessive hours, noises louder than 80 decibels, diesel exhaust
       fumes, engine vibration and cold. The Federal Railroad Administration responded with
       an extensive, 24-hour-a-day audit of the Union Pacific system that went on for 16 days.
       Deficiencies in training and dispatching, and problems with fatigue were discovered.
       New safety initiatives were undertaken, including adding more dispatchers, providing
       employees more training on their equipment, and establishing an oversight team charged
       with reducing the dispatchers workload.



Guilty plea entered in theft from MARAD
reserve fleet
Following an OIG investigation, Dominic L. Fulco of Concord,
California pleaded guilty to conspiracy and theft of Government prop-
erty in Federal Court in Sacramento, California. Investigators believe
Fulco was part of an industrial burglary ring, which specialized in steal-
ing copper cable and other metal parts. The ring had targeted the
MARAD Suisun Bay Reserve Fleet in a series of thefts over several
years. The thefts netted the ring more than $150,000. As a condition of
his plea, Fulco must cooperate with prosecutors and make restitution.
Two other men and a woman suspected in related thefts were arrested.

      Repair station pays $570,000 settlement
      in aircraft parts substitution
      Chromizing Southwest of El Centro, California, an FAA-certified repair station,
      agreed to pay $570,000 in a civil settlement for misrepresenting aircraft parts sold to
      its customers. The company led its customers to believe that Pratt & Whitney parts
      were used for repairs on JT8D jet engine components, an engine frequently used by
      major airlines. In fact, cheaper parts had been substituted  reaping the firm profits
      in the millions of dollars.




                                                   21
      Air passenger origin and
      destination data found unreliable
      Data on the origin and destination (O&D) cities travelers fly to, and from, is crucial to
      Transportation Department decisions on airfare analysis, grants of FAA funds and inter-
      national air route awards. However, our review of O&D data (report AV-1998-086) found
      the data collected by the Bureau of Transportation Statistics was neither accurate nor com-
      plete. A significant problem is an outdated collection system, forcing BTS employees to
      look through millions of used paper tickets and computer files. Though DOT sets a 95-
      percent-accurate standard for the data, our sampling of passenger counts in 8,894 city-to-
      city itineraries found that 69 percent fell outside the accuracy standard. OIG recommends
      basing future data collection on the computerized reservation systems run by airlines; the
      Department agrees and is proceeding with implementation.

Inventory fails to count nearly half of Federally
owned bridges
Of approximately 580,000 bridges open to the public in the United States,
about 10,000 are owned and maintained by 14 Federal agencies. The
Federal Highway Administration keeps an inventory of them and reports
to Congress every 2 years on their number and condition. Our audit report
(TR-1998-079) found that 4,770 Federally owned bridges  more than
47 percent  are not in the inventory, that information on conditions is
not reliable and that about one-fourth of all bridges in it are not inspect-
ed every 2 years, as required. We recommended that FHWA improve its
data analysis and seek authority to compel agencies controlling such
bridges to inspect them properly. FHWA agreed it should improve data
collection but disagreed on the other findings, offering alternatives.


      Passenger rail safety orders
      Following two crashes involving commuter trains, the Federal Railroad Administration
      issued Emergency Order 20 to all commuter train operators to prevent future crashes and
      make sure passengers could exit. Our audit report (TR-1998-078) reviewed compliance
      with FRAs order. We found FRA effectively checked compliance with its elements: engi-
      neers were to abide by all trackside signals and communicate them to a second crewmem-
      ber; FRA inspectors were to interview engineers to evaluate their knowledge of new pro-
      cedures; a sample of passenger cars was to be checked for clear exit markings and work-
      ing window exits; and safety plans were to be reviewed.

                                                   22
                                                              February 1998

Some small railroads
unprepared for El Nino
An OIG sampling of 41 railroads  8 large and 33 small  concluded
that many of the smaller lines may need to take further steps to improve
rail safety and public safety as the weather pattern known as El Nino
spurs heavy precipitation in many areas of the United States (report TR-
1998-074). Many of the small railroads carry hazardous materials as well
as passengers, and cross terrain subject to adverse weather conditions.
The Federal Railroad Administration agreed to send the foul-weather
safety advisory it had earlier sent large railroads to all small railroads. The
advisory outlines safety practices to reduce the risk of casualties from
train derailments caused by weather-related phenomena.


      Owner of aviation parts firm jailed
      The owner of an aircraft-parts firm that had certified parts as specifically tested, when
      they were not, was sentenced to 10 months incarceration. A U.S. District Court Judge in
      Pennsylvania also ordered Frank Rizzo, owner of Keystone Tool and Machine Co. of
      Darby, Pennsylvania, to make $25,000 in restitution. The Office of Inspector General
      investigated Rizzos firm as part of a joint effort with four other Federal agencies. In addi-
      tion to the time and fine, Rizzos sentence includes 36 months probation and 75 hours of
      community service.



Guilty plea in substandard parts case
brings $100,000 fine
A Florida firm that supplied substandard aircraft fasteners to Federal
Government contractors including the Transportation Department, the
Department of Defense and NASA entered a guilty plea to one count of
mail fraud during retrial in U.S. District Court in Maryland. A fine of
$100,000 resulted. An earlier trial of Electronic Fasteners, Inc. of
Sanford, Florida, ended with a deadlocked jury. The company was
indicted on mail fraud charges in August 1996 following a Maryland-
based undercover probe involving OIG. The investigation revealed that
Electronic Fasteners Inc. resold commercially available nuts, bolts and
screws with reference to a military specification number, when the parts
had not been made in conformance with such specifications.

                                                    23
Should JFK International Airport spend
passenger fees on light rail?
In what could be a precedent-setting issue for airports nationwide, OIGs legal coun-
sel was asked to comment on a proposal to raise money for a $1.6 billion light-rail
system to John F. Kennedy International Airport in New York. Use of passenger
facilities charges could consume all PFC revenue for the three Port Authority air-
ports  JFK, La Guardia and Newark  until at least 2009. OIG asked FAA to
determine whether the light-rail system is needed to overcome capacity limitations
on other ground-based access to the airport; whether such financing would take an
unacceptable bite out of funds needed for safety, security or capacity improve-
ments on the airport grounds; and whether some or all of the funds should come from
more traditional surface transportation sources. FAA sought, and got, assurance from
the Port Authority that such PFC use would not impair safety, security or capacity at
the airport. FAAs decision to allow such PFC use is now under appeal.



    Firm pleads guilty to unauthorized aviation repair charges

    As a result of a joint OIG and FBI investigation, Flight Director, Inc. pleaded guilty in
    U.S. District Court in Austin, Texas to charges of failing to make a report to the FAA, in
    connection with unauthorized and illegal repairs to avionics equipment which was sold as
    serviceable parts. The firm was fined $30,000. The firm has agreed, as part of its plea,
    not to seek repair station certification from the FAA for 5 years.



Cost-effectiveness questioned
In an audit (MA-1998-073) of services offered through DOTs Administrative
Service Center, known as TASC, OIG found that some of the 15 areas analyzed
raised cost-effectiveness questions. However, the majority of areas were cost-effec-
tive and gave good value in comparison with private-sector offerings. Questioned
were the Computer Center for data processing; the Learning and Development unit,
which offers training; and the computer programming and graphics units.
Collectively, the areas critiqued in the audit operated at a $2.9 million loss in Fiscal
Year 1997. OIG recommended the areas measure effectiveness and end services that
cannot be made cost-effective. TASC offers services in 45 areas deemed to have
common utility throughout DOT. The audit was ordered by House-Senate confer-
ence report Public Law 105-313. TASCs director has agreed to set milestones for
the four areas.

                                                24
                                                        February 1998

Congress hears testimony on OIG activity,
Department priorities
In testimony before the House Appropriations Committees Subcommittee on Transportation
and Related Agencies, the Inspector General outlined the offices structural changes and
accomplishments during the previous year. The remarks then focused on a request by House
Majority Leader Richard Armey to develop a list of 10 priority management issues within the
Department. The IG noted that the issues list reinforced the focus of ongoing and future work
and briefly outlined the 10 topic areas, which include: aviation safety, surface transportation
safety, Year-2000 computer issues, air traffic control modernization, FAA funding and cost-
management systems, infrastructure needs, transportation security, financial accounting and
the Chief Financial Officers Act, Amtraks financial viability, and the Departments compli-
ance with the Government Performance and Results Act. Following the testimony, the
Inspector General and accompanying OIG officials answered numerous questions on
Department programs closely related to these issues.




                                               25
                       Congress hears testimony on Amtraks status
                       In testimony before the Senate Appropriations Subcommittee on
                       Transportation, the Inspector General warned that recent passage of an
                       Amtrak reform bill, which freed new funding sources, does not mean
                       the troubled railroad has escaped several looming concerns.
                       Specifically, the IG said Amtraks financial future must include vali-
                       dation of its revenue, a realistic look at its capital needs and at whether
                       Amtrak can spend capital funds on maintenance. The IG also told the
                       panel that self-sufficiency, sought for Amtrak by the year 2002,
                       needs to be clearly defined and Amtraks Northeast Corridor revenue
                       expectations need review.

Update: FAAs 90-day safety review task force
OIG and FAA jointly followed up on recommendations made by FAAs 90-day safe-
ty review task force, formed following the tragic 1996 crash of a ValuJet passenger
plane in the Florida Everglades, which killed all on board (report AV-1998-090). FAA
and the Secretary of Transportation have acted on all 31 resulting recommendations,
but only 9 are fully implemented. Further, more than 18 months after the crash, the
most significant recommendations are yet to be carried out. As an example, FAA has
added 146 safety inspectors and 74 support staffers, but has yet to target its oversight
of air carriers to focus on specific risks or develop plans tailored to each carriers
operations. Strong management was urged, to guarantee follow-through. FAA is
integrating several task force recommendations into a new approach to aviation safe-
ty oversight.


                       Guilty plea entered in Los Angeles Metro
                       insurance kickback scheme
                       Gilda DeSmith, an insurance consultant to the Los Angeles Metro
                       Transit Authority, was sentenced to 6 months incarceration and a
                       $3,000 fine after pleading guilty to a bribery charge in U.S. District
                       Court. DeSmith paid a $5,000 bribe to Abdoul Sesay, the former
                       insurance director for the transit agency, in return for business, then
                       failed to report approximately $116,000 in resulting contract income.
                       DeSmith also will serve 3 years supervised release. The case was
                       investigated by the Office of Inspector General, the FBI and by the
                       inspector generals office within the transit agency.

                                         26
                                                           March 1998

Funds diverted at Georgia airport;
corrections planned
FAA asked OIG to audit airport revenue at two airports in Georgia: Bush Field and
Daniel Field, both controlled by the Augusta-Richmond County Commission. OIG
found (report AV-1998-093) that airport revenue from Bush Field was used for prohib-
ited purposes, including a $2 million loan to the countys general fund, $175,000 to buy
land unusable for airport purposes, $94,281 for county administrative costs and $4,592
for auditing costs related to revenue diversion. Further, $350,000 was moved from a
fund used to repay airport bonds to the county general fund. FAA concurred with OIG
and asked the county to reimburse the funds found inappropriately diverted.


                      Pesticide spill on jet spurs probe, guilty plea
                      The president of a Miami, Florida freight-forwarding firm pleaded
                      guilty to three charges involving illegal transportation of hazardous
                      materials. Angel Dante Fuentes, president of Executive Freight
                      Consolidators Inc., was charged after he attempted to illegally ship a pes-
                      ticide in bags on a commercial passenger jet; one bag of the substance
                      tore, releasing fumes that sickened people nearby. Fuentes also was
                      alleged to have attempted to illegally ship more of the pesticide by boat.
                      Sentencing is scheduled in May. The case was jointly investigated by
                      OIG, the FBI and the Environmental Protection Agency.




                                          27
                                                         March 1998

                    Towboat firm pleads guilty in 18-mile
                    Ohio River oil slick
                    The president of a Paducah, Kentucky towboat firm pleaded guilty and
                    was fined $115,000 in connection with an 18-mile-long oil slick on the
                    Ohio River at Cincinnati. The case was jointly investigated by a task
                    force including the Office of Inspector General. Wayne L. Tolen, presi-
                    dent of Tolen Marine Inc., pleaded to a violation of the Clean Water Act.
                    Analysis by the U.S. Coast Guards identification laboratory confirmed
                    that the slick came from a Tolen Marine boat and that oil and other pol-
                    lutants from the boat could be pumped overboard only by deliberately
                    setting valves in the engine room.


Relocation benefits used as job incentives
OIG investigated the receipt of relocation payments by six Amtrak executives 
beyond their actual relocation costs  to determine whether the payments violated the
law or Amtrak policy. Amtrak was obliged to advise Congress of compensation of
more than $148,400 a year paid to any Amtrak officer. OIG found that Amtrak had not
informed Congress that four officers received annual compensation exceeding that
sum between 1995 and 1997, due to receipt of relocation benefits. It was learned that
the former president of Amtrak authorized the payments, without the knowledge of
Amtraks Board of Directors, to offer job candidates compensation beyond Amtraks
self-imposed executive salary cap. On March 11, the board agreed to follow OIGs
call to file retroactive reports to Congress and review the relocation policy.


                    Sanitary Food Transportation Act
                    requirements should be transferred
                    In response to a request from the Chairman of the Senate Committee on
                    Commerce, Science and Transportation, OIG looked into DOTs fulfill-
                    ment of the Sanitary Food Transportation Act of 1990. Our report (TR-
                    1998-100) found that DOT has not implemented or enforced all provi-
                    sions of the Act. The Chairman also asked OIGs opinion of a proposal
                    to shift responsibility for food transportation safety from DOT to the
                    Food and Drug Administration. OIG deemed the transfer in the public
                    interest because FDA has greater expertise than DOT in food-safety
                    issues.

                                      28
29
                       OIG Fiscal Year 1998 Budget

                                    (Dollars in Thousands)

              General Services Administration
              Rent--$2,350                       Benefits--
                                                 $6,959
          Other--
          $1,906




           Travel--$1,735                        Personnel Compensation--
           TASC--$1,276                          $27,715




                      Office of Inspector General
                            Fiscal Year 1998
                        Staffing Authorization

Inspector General, Immediate Office                                           8
Assistant IG for Auditing and Evaluation                                    303
Assistant IG for Investigations                                             102
Legal Counsel and Freedom of Information Act                                  5
Information Resource Management                                               6
Human Resources and Training                                                  7
Finance and Administration                                                    9

                                                                            440

                                                30
      Organization/Management

                                    INSPECTOR GENERAL


                               DEPUTY INSPECTOR GENERAL


                                                                          LEGAL COUNSEL

                                                                         COMMUNICATIONS

   ASSISTANT IG FOR                 ASSISTANT IG FOR              INFORMATION/HUMAN RESOURCES
    INVESTIGATIONS                      AUDITING                   FINANCIAL/ADMINISTRATIVE SVCS.



             DEPUTY                  DEPUTY          DEPUTY        DEPUTY             DEPUTY
             AIG FOR                 AIG FOR        AIG FOR        AIG FOR            AIG FOR
            INVESTIG-                AVIATION       SURFACE      MARITIME/DE-        ECONOMIC,
              ATIONS                               TRANSPOR-     PARTMENTAL         FINANCIAL &
                                                     TATION       PROGRAMS          INFO. TECH.




The Office of Inspector General for the Department of Transportation was created by
Congress through the Inspector General Act of 1978 (Public Law 95-452). The Act sets
several goals for OIG:

              o	        To conduct or supervise objective audits and investigations of DOTs
                        programs and operations;
              o         To promote economy, effectiveness and efficiency within DOT;
              o         To prevent and detect fraud, waste, and abuse in the Departments
                        programs;
              o	        To review existing and proposed laws or regulations affecting the
                        Department and make recommendations about them; and
              o	        To keep the Secretary of Transportation and Congress fully informed
                        about problems in Department programs and operations.

To fulfill these goals, OIG is divided into two major units and five support units. The major
units are the Office of Assistant Inspector General for Auditing and the Office of Assistant
Inspector General for Investigations; each has headquarters staff and regional staff. The sup-
port units are the Office of Legal Counsel, the Communications Office, the Office of
Information Resource Management, the Office of Human Resources and Training, and the
Office of Financial and Administrative Services.




                                            31
                     Summary of Performance
               October 1, 1997 - March 31, 1998
                   Office of Inspector General
                   Reports Issued 106
Total financial recommendations $625,030,000
      That funds be better-used $615,334,000
               Questioned costs $9,696,000

 Referrals: prosecution, litigation
                   or other action 133

  Cases accepted for prosecution 117

                      Indictments 45

     Decisions to seek recoveries $600,047,000


    Fines, restitutions, recoveries   $9,535,674


                   Convictions 42
       Suspensions/debarments 9

Actions affecting DOT employees
 26


                         32
            Completed Audits October 1, 1997-March 31, 1998

                       (Dollars in Thousands)

                                                Estimated Amounts*

Type of Review                         No. of     No. of        Costs              Costs Un-            Funds to
                                       Reports    Recomm. Questioned               Supported            Better Use **

Internal Audits:
       Program/Functional                  43     124         $4,505                  $83                $524,858
       Chief Financial Officer
              Financial
              Statements:
       DOT Consolidated                     1        4            $0                   $0                      $0
       Others                               3        1            $0                   $0                 $90,000
       Total Internal Audits               47      129        $4,505                  $83                $614,858

Grant Audits:
      Audits of Grantees under
      Single Audit Act                     42        6           $19                   $0                       $0
      Other Grant Audits                    5        5          $155                   $0                     $476
      Total Grant Audits                   47       11          $174                   $0                     $476


Contract Audits:
                                           12       8         $4,933                   $0                          $0
      Contracts
      Total Contract Audits                12       8         $4,933                  $0                       $0
                                          106     148         $9,612                 $83                 $615,334
      TOTALS

               * The dollars shown are the amounts reported to management. The actual amounts may change
               during final resolution.
               **DOTs Consolidated Financial Statement also showed $98 billion in adjustments and reclassifica-
               tions. An adjustment occurs when an amount in an account should be moved to another account
               in another section of the financial statement. A reclassification occurs where the balance in an
               account includes amounts that should be in another account.

          Department of Transportation programs and operations are primarily carried out
          by the Departments own personnel and recipients of Federal grants. Audits by
          DOTs Office of Inspector General, as a result, fall into three categories: internal
          audits of Departmental programs and operations, audits of grant recipients, and
          reviews of work and spending by contractors. The table above shows OIGs results
          in the three categories for the 6 months covered by this report.

                                                           33
      Management Decisions Regarding Audit Recommendations
                                                (Dollars in Thousands)
                              Number         Number of                                                   Funds to be
                                of           Recommen-         Questioned          Unsupported           Put to Better
     Description              Reports          dations           Costs               Costs*                  Use

      Unresolved
     as of 9/30/97                19              142           $37,889               ($4,700)               $77,836
      Audits with
    Findings During
    Current Period                51              148            $9,696                   ($83)            $615,334

Total to be Resolved              70              290            $47,585              ($4,783)             $693,170

    Mgt Decisions:
    A.Audits Prior
       Period                      3               76           $15, 491                   ($0)                    $0


   B.Audits Current
       Period                     32               93             $7,327                   ($0)            $593,334


   Total Resolved
Reports/Recommen-
      dations                     35              169            $22,818                   ($0)            $593,334


   Unresolved as of
     3/31/98**                     35              121           $24,767               ($4,783)             $99,836


Aging of Unresolved
       Audits:
Less than 6 mos. old               19              55            $2,369                  ($83)              $22,000
                                                                 $9,267                   ($0)                   $0
   6 mos. - 1 year                  6              13
                                                                 $1,710                   ($0)                   $0
  1 year - 18 mos.                  1               1
                                                                 $3,000                   ($0)              $36,400
 18 mos. - 2 years                  2               9
                                                                 $8,421               ($4,700)              $41,436
  Over 2 years old                  7              43



TOTALS                             35             121           $24,767               ($4,783)              $99,836

*Unsupported costs included with the figure shown as             ** A report is considered unresolved if management deci-
questioned costs.                                         34     sions have not been made on all report recommendations.
     Audit Reports with Recommendations That Questioned Costs

                                                   (Dollars in Thousands)

                                        Number of             Number of Rec- Questioned                      Unsupported*
                                        Reports               ommendations   Costs                            Costs

A.     For which no manage-
       ment decision had
       been made by start of
       the reporting period                      11                   16                    $37,889                 ($4,700)

B.     Which were issued
       during the period                         14                   20                      $9,696                     ($83)


   Totals (A+B)                                  25                   36                     $47,585                 ($4,783)
C.    For which a manage-
      ment decision was
      made during the
      reporting period                            8                   12                     $22,818                     ($0)


       (i) dollar value of dis-
       allowed costs                            **6                  ***9                     $6,963                     ($0)
       (ii) dollar value of
       costs not disallowed                     **3                  ***4                    $15,855                     ($0)


D.     For which no manage-
       ment decision has been
       made by the end of the
       reporting period                          17                   24                    $24,767                 ($4,783)

 *Unsupported costs are also included in the figures shown as questioned costs. ** Includes reports in which costs were both
 allowed and disallowed. *** Includes recommendations in which costs were both allowed and disallowed.

The Inspector General Act requires explana-                           The Inspector General Act also requires this
tions of reasons for significant revisions to                         report to describe any significant manage-
management decisions made during the                                  ment decision with which the Office of
reporting period. OIG follows up on audits                            Inspector General disagrees. At the close of
reported in earlier Semiannual Reports.                               this reporting period, there were no signifi-
During this reporting period, there were no                           cant management decisions with which
significant revisions of departmental man-                            OIG disagreed.
agement decisions reported to OIG.
                                                             35
          Audit Reports with Recommendations that Funds be Put

                              to Better Use

                                                   (Dollars in Thousands)


                                                         Number of                  Number of             Dollar
                                                         Reports                    Recommend-            Value
                                                                                    ations
A.       For which no management
         decision had been made by
         the commencement of the
         reporting period                                           3                      10                 $77,836

B.       Which were issued during the
         reporting period                                           8                         8              $615,334


         TOTALS (A+B)                                              11                      18                $693,170

C.       For which a management decision
         was made during the reporting
         period                                                     6                      7                 $593,334


         (i)      dollar value of recommenda-
                  tions that were agreed to by
                  management:
                  --based on proposed manage-
                  ment action                                       6                     7                  $593,084
                  --based on proposed legis-
                  lative action                                     0                     0                           0

         (ii)     dollar value of recommenda-
                  tions that were not agreed to
                  by management                                    *1                    *1                        $250

D.       For which no management decision
         had been made by the end of the
         reporting period                                           5                    11                   $99,836

     *Includes reports and recommendations in which some costs were allowed and others were disallowed.

                                                              36
                 Audit Reports Recommending Changes
                   for Safety, Economy or Efficiency

                                                       Number of      Number of
                                                        Reports    Recommendations
A.   For which no management decision had been made
     by the commencement of the reporting period          14             117



B.   Which were issued during the reporting period        37             120


     TOTALS: (A + B)                                      51             237



C.   For which a management decision was made during
     the reporting period                                 26             151



D.   For which no management decision has been made
     by the end of the reporting period                   25             86




                                             37
                               Status of Unresolved Audit Recommendations

                                            Over 6 Months Old

                                 CITED IN SEMIANNUAL REPORT FOR OCTOBER 1, 1993-MARCH 31, 1994

FAA-Monitoring of Airport Revenues at the            R9-FA-4-001        10/18/93    Referred to the Departmental
Phoenix Sky Harbor International Airport                                            Resolution Official in June 1994.

                                CITED IN SEMIANNUAL REPORT FOR APRIL 1, 1995-SEPTEMBER 30, 1995

FTA-Useful Life of Rail Cars, Washington             R4-FT-5-091        06/27/95    Referred to the Departmental
Metropolitan Area Transit Authority                                                 Resolution Official in August 1996.

                                 CITED IN SEMIANNUAL REPORT FOR OCTOBER 1, 1995-MARCH 31, 1996

FAA-Controls over Access to Aircraft for Free        AS-FA-6-004        02/20/96    Referred to the Departmental
Transportation                                                                      Resolution Official in August 1996
FAA-Use of Airport Revenues, Denver Stapleton        R6-FA-6-006        02/08/96    Referred to the Departmental
Airport                                                                             Resolution Official in
                                                                                    August 1996.
FAA-Voluntary Separation Incentive Payments          R6-FA-6-009        02/09/96    Awaiting FAAs investigation and U. S.
                                                                                    Attorney action.
FAA-Monitoring Accountability and Use of             R9-FA-6-001        10/30/95    Referred to the Departmental
Airport Revenues Los Angeles                                                        Resolution Official in August 1996.
FAA-Advisory Memorandum on Santa Ynez                R9-FA-6-003        12/06/95    Referred to the Departmental
Valley Airport Hotline                                                              Resolution Official in August 1996.

                                CITED IN SEMIANNUAL REPORT FOR APRIL 1, 1996-SEPTEMBER 30, 1996

FAA-Airport Improvement Program Grants               R9-FA-6-015        09/20/96    Working with FAA to
Provided to Hawaii DOT                                                              resolve all open issues.
FHWA-State of Oklahoma                               Y4-FH-6-066        08/13/96    Resolution should be
                                                                                    completed during the third quarter FY 1998

                                 CITED IN SEMIANNUAL REPORT FOR OCTOBER 1, 1996-MARCH 31, 1997

FAA-City of San Antonio                              Z4-FA-7-018        01/29/97	   Resolution should be
                                                                                    completed during the fourth quarter
                                                                                    FY 1998.

                                CITED IN SEMIANNUAL REPORT FOR APRIL 1, 1997-SEPTEMBER 30, 1997

FHWA-Relocation of Utilities on the Central Artery   R2-FH-7-025        08/12/97    FHWA March 30, 1998 reponse did
Third Harbor Tunnel Project                                                         not resolve the report. Referral to Official
                                                                                    for resolution being prepared.
FAA-Diversion of Airport Revenue, Dade County        R4-FA-7-035        06/25/97    Resolution should be completed
Aviation Department                                                                 during the fourth quarter FY 1998.

FAA-State of Hawaii Department of Transportation,    Y4-FA-7-040        04/24/97    Resolution will be completed
Airports Division                                                                   during the third quarter FY 1998.

FTA-Puerto Rico Department of Transportation         Y4-FT-7-067        09/30/97`   Resolution will be completed
and Public Works                                                                    during the third quarter FY 1998.
                                                                                    .
FTA-Puerto Rico Department of Transportation         Y4-FT-7-068        09/30/97`   Resolution will be completed
and Public Works                                                                    during the third quarter FY 1998.

FHWA-State of Ohio                                   Z4-FH-7-037        04/07/97    Resolution will be completed
                                                                                    during the third quarter FY 1998.
                                                                   38
Application of Audit Resources by
Operating Administration*




                                    *The 33 percent concentration on Office of the Secretary
                                    was largely attributable to auditing done to comply
                                    with the Chief Financial Officers Act. Such auditing is
                                    on behalf of all Operating Administrations.


         Application of Investigative Resources
         by Operating Administration

                                SECRETARYS           RSPA          COAST
                                  OFFICE               3%           GUARD
                       FTA          8%                                               MARAD
                       5%                                            7%
                                                                                      2%




                                    FAA
                                                       FHWA                 NHTSA, FRA, SLSDC
                                    35%
                                                        40%                   -- less than 1%




                                          39
                              Profile of Pending Investigations
          DOT Operating                      Number of                            Types of Cases
          Administration                       Cases            Contracts Employees Grants           Other*
Federal Aviation
Administration                                   167                26            34            7     100

Federal Highway
Administration                                   114                12             2           23     77

Federal Railroad Administration                     1                 0            1            0       0

Federal Transit Administration                    27                  5            0           15       7

Maritime Administration                            7                  3            2            0       2

National Highway
Transportation Safety Admin.                       1                  0            0            0       1

Office of the Secretary                            4                  0            1            0       3

Research and Special Programs
Administration                                    13                  0            1            1     11


Saint Lawrence Seaway
Development Corp.                                  1                  0            1            0       0

Surface Transportation Board                       1                  0            1            0       0


U.S. Coast Guard                                  31                11             9            1     10
      TOTALS:                                    366                57            52           47     211

        Percent of total:                        100                16            14           13      57


*Includes companies and individuals making false statements to officials of Departmental programs.




                                                        40
                 Investigations
                                                              OIG investigations in this
                Judicial Actions
                                                              reporting period spurred
          October 1, 1997-March 31, 1998                      $9,535,674 in recoveries
                 Indictments 45                               including fines, restitution,
                 Convictions 42                               civil judgments or settle-
             Years Sentenced 46.5                             ments, and Federal and
             Years Probation 114                              State recoveries. Federal
                        Fines $1,504,325                      recoveries go to the U.S.
Restitutions/Civil Judgments $2,155,832                       Treasury. State recoveries
            Federal Recovery $5,809,017                       are retained by the states.
              State Recovery $ 66,500

                     TOTAL $9,535,674



 The 6 months covered by this
 report opened with a pending
 caseload of 408. During the                           Investigations
 period, 80 cases were opened                      Administrative Actions
 and 123 were closed, leaving a                 October 1, 1997-March 31, 1998
 pending caseload of 365. Our
                                                      Employee Suspensions     5
 investigators made a concert-
                                            Employee Reassignment/Transfer     1
 ed effort during the period to
                                            Employee Resignation/Retirement    2
 clear backlogs.
                                                       Employee Terminated     2
                                                       Employee Restitution    2
                                                       Employee Reprimand      4
           During the period, 117                       Employee Counseled     10
           cases were accepted for                 Debarments/Suspensions      9
           prosecution, while 45                           Price Adjustment    1
           were declined.     The                          Corrective Action   18
           number of cases pend-                   New Procedure Instituted    10
           ing before prosecutive                              Other Action    10
           authorities as of March                      Contract Terminated    1
           31, 1998 was 86.                                         TOTAL      75




                                           41
                    Ongoing and Planned Audits and Evaluations 

      In the interest of maximizing DOTs value to citizens, the Secretary of Transportation has developed a Strategic Plan
      setting priorities for the appropriate deployment of Departmental staff and other resources. This table serves as an illus-
      trative listing of major OIGs work planned and in progress in relation to the Secretarys priorities of Safety, Wise
      Infrastructure Investment, and Common-Sense Government. These priorities are linked to DOTs Strategic Goals:
      Safety, Mobility, Economic Growth and Trade, Human and Natural Environment and National Security.


                                                        Safety                     Wise                  Common-Sense
          Subject of Audit                                                    Infrastructure              Government
                                                                               Investment
Department of Transportation                                                            x                            x
FY 1998 Financial Statements
Compliance, Government
                                                                                                                     x
       Performance and Results Act
Year-2000 Computer Issues                                   x                           x                            x
Federal Aviation Administration
                                                                                        x                            x
FAAs Cost-Accounting System
Year-2000 Computer Issues
                                                            x                           x                            x
          Domestic Aviation
Review of FAAs National Aviation
         Safety Inspection                                  x
          Program
Communications Satellite Plans
                                                            x                           x
Air Traffic Controller Training                             x                           x
Airport Access Control                                      x
Certification of New Avionics                               x                           x
International Safety Assessment                             x
Acquisition Management Reform                                                           x                            x
Air Cargo Security Oversight                                x
Explosive Detection System                                  x
Contract Tower Program                                      x                           x                            x
Flight Duty Time/Crew Fatigue                               x
Concurrent Deployment of
                                                                                        x
         Modernization Programs
FAA Personnel Reforms                                                                                                x
Airways Facilities Training Program for                     x                                                        x
         Maintenance Technicians
Airport Revenue and Airport Financial                                                   x                            x
         Reporting
Federal Highway Administration
Safety Program for Commercial                               x
        Trucks at U.S. Borders
Transportation of Hazardous
       Materials on U.S. Roadways                           x

                                                                 42
                                                              Wise        Common-Sense
           Subject of Audit                   Safety     Infrastructure    Government
                                                          Investment
Federal Highway Administration
                                                               x                x
Intelligent Transportation Systems
Infrastructure Megaprojects                                 x                x
         Amtrak Northeast Corridor;                            x                x
         California Cypress Freeway;                           x                x
         Los Angeles Metro Red Line;                                            x
                                                               x
         Utahs I-15;
                                                               x                x
         Corridor H, West Virginia;
         Washington, D.C. Subway                               x                x
 Transportation Enhancement Funds                              x                x
Federal Railroad Administration
Safety Assurance/Compliance Program
                                                x
Rail Bridge Safety Programs                     x
Railroad Grade Crossing Program                 x
Surface Transportation Board/                                                   x
                                                               x
        Rail Mergers
Amtraks Financial Viability                                   x                x
Federal Transit Administration
L.A. Metro Recovery Plan                                       x                x
Oversight of Light-Rail Safety                  x
Oversight of Transit Bus Safety                 x
Rail Transit Station, San Francisco Airport                    x
FTA Management of Grant Funds                                  x                x
Maritime Administration
                                                x
Security, Vessels and Terminals
                                                x
Abandoned Vessels and Barges
Maritime Security Program                                      x                x
U.S. Coast Guard
Coastal Patrol Boat Acquisitions                x              x
Acquisition of Family Housing                                  x                x
Recovery of Medical Costs                                      x                x




                                                    43
                                  Office of Inspector General

                                         Audit Reports

                                 October 1, 1997-March 31, 1998


                                 FEDERAL AVIATION ADMINISTRATION

INTERNAL AUDITS - 9 Reports
                                                                   FOCUS OF FINDINGS/
REPORT          DATE SUBJECT                                       RECOMMENDATIONS:
FE-1998-098   98/03/25 FAA Fiscal Year 1997 Financial              $90,000,000 better use
                       Statements
AV-1998-025   97/11/21 Airport Certification Program               Better staff utilization
AV-1998-041   97/12/08 Management Advisory of Deployment           Efficient equipment installation
                       Readiness Review
AV-1998-061   98/01/20 Air Traffic Controller Workforce            Better management practices
                       Labor Agreements
AV-1998-075   98/02/09 Final ReportRunway Incursions              Improved safety
FE-1998-044   97/12/09 Closeout of Imprest Funds FAA               Better operating practices
                       Administrationwide
AV-1998-093   98/03/12 Diversion of Airport Revenue                $2,143,541 questioned
                       Augusta-Richmond County, Georgia
AV-1998-011   97/11/07 Galveston, Texas Airport Revenue            $360,871 questioned
                       Scholes Field
AV-1998-026   97/11/21 Airport Revenues, Big Spring, Texas         $1,964,011 questioned
                       McMahon-Wrinkle Airpark

GRANT AUDIT - POSTAWARD - 6 Reports



QC-1998-052   97/12/16   Jacksonville Port Authority
              Better grantee oversight
QC-1998-056   98/01/06    City of Austin, Texas
                   Better grantee oversight
QC-1998-059   98/01/12    Lee County, Florida
                     Better grantee oversight
QC-1998-069   98/02/03    Metropolitan Washington Airports
        Better grantee oversight
                          Authority
QC-1998-097   98/03/25    Rhode Island Airport Corporation         Better grantee oversight
QC-1998-101   98/03/30    Dallas-Fort Worth International          Better grantee oversight
                          Airport



OTHER - 11 Reports



FE-1998-027   97/11/26   Management Advisory on Year-2000          Continuity of operations
                         Computer Problem at FAA
FE-1998-068   98/02/23   Year-2000 Computer Challenges             Continuity of operations
                         FAA




                                                          44
AV-1998-001   97/10/17	   Testimony on Observation on             Better program development
                          FAA Plan to Use Satellite Technology
                          for Air Traffic Management
AV-1998-012   97/11/12    Standard Terminal Automation            Better program development
                          Replacement System
AV-1998-015   97/12/08    Federal Aviation Administrations       Improved safety
                          Runway Incursion Program
AV-1998-092   98/03/25    FAAs Research, Engineering, and        Increased coordination,
                          Development Program                     Departmentwide
AV-1998-090   98/03/03    Status of FAAs 90-Day Safety           Improved safety oversight
                          Review Recommendations
AV-1998-005   97/11/04    Management Advisory on Aviation         Improved safety oversight
                          Inspection Program
AV-1998-042   97/12/09    Free Industry Flight Training for       Improved safety oversight
                          Inspectors
AV-1998-021   97/10/20    Management Advisory Memorandum          $1,371,284 better use
                          on Los Angeles World Airports
AV-1998-089   98/03/27    Air Traffic Control Modernization       Better program development



                                 FEDERAL HIGHWAY ADMINISTRATION

INTERNAL AUDITS - 3 Reports
                                                                  FOCUS OF FINDINGS/
REPORT          DATE            SUBJECT                           RECOMMENDATIONS:
TR-1998-079   98/02/11    Inspection of Federally Owned           Improved safety oversight
                          Bridges
TR-1998-045   97/12/11    Management Advisory: FHWA               $500,000,000 better use
                          Unexpended Obligations,
                          Complete/Inactive Projects
FE-1998-099   98/03/27    Fiscal Year 1997 Financial              Better fund management
                          Statements, Highway Trust Fund



GRANT AUDIT - POSTAWARD - 13 Reports



TR-1998-009   97/10/17    Arkansas State Highway and              Better grantee oversight
                          Transportation Department
TR-1998-010   97/10/20    State of Georgia                        Better grantee oversight
TR-1998-013   97/10/20    State of Hawaii, Department of          Better grantee oversight
                          Transportation, Administration
QC-1998-031   97/12/01    State of Oklahoma                       Better grantee oversight
QC-1998-050   97/12/16    State of Georgia                        Better grantee oversight
QC-1998-054   98/01/06    State of Alabama                        Better grantee oversight
QC-1998-058   98/01/12    South Carolina Department of            Better grantee oversight
                          Transportation
QC-1998-064   98/01/22    State of North Carolina                 Better grantee oversight
QC-1998-062   98/01/22    South Carolina Department of            Better grantee oversight
                          Transportation
QC-1998-087   98/02/26    New Mexico State Highway and            $19,248 questioned
                          Transportation Department

                                                           45
QC-1998-018   97/11/24	   Quality Control Review of State of               Better grantee oversight
                          Minnesota for FY Ended June 30, 1995
QC-1998-088   98/03/02	   Quality Control Review of State of Indiana for   Better grantee oversight
                          FY Ended June 30, 1996
QC-1998-066   98/01/23	   State of Hawaii, Department of                   Better grantee oversight
                          Transportation, Highways Division


                                 FEDERAL RAILROAD ADMINISTRATION

INTERNAL AUDITS - 1 Report
                                                                           FOCUS OF FINDINGS/
REPORT          DATE           SUBJECT                                     RECOMMENDATIONS:
TR-1998-074   98/02/05	   Actions Taken In Advance of                      Improved safety practices
                          El Ninos Adverse Weather

OTHER - 2 Reports



TR-1998-095   98/03/24    Assessing Amtraks Future                        Funding/self-sufficiency
TR-1998-078   98/02/10    Passenger Rail Safety Emergency                  Increased railroad safety
                          Orders



                                         MARITIME ADMINISTRATION

INTERNAL AUDITS - 2 Reports
                                                                           FOCUS OF FINDINGS/
REPORT        DATE        SUBJECT                                          RECOMMENDATIONS:

MA-1998-007   97/11/07	   Management Advisory on                           Protection against default
                          Massachusetts Heavy Industries, Inc.
                          Title XI Loan Guarantee
MA-1998-048   97/12/17	   Management Advisory on                           Protection against default
                          Massachusetts Heavy Industries, Inc

GRANT AUDIT - PREAWARD - 1 Report



MA-1998-057   98/01/12	   Matson Navigation Company, Inc                   $45,883 better use
                          Construction-Differential Subsidy

GRANT AUDIT - POSTAWARD - 4 Reports

MA-1998-036   97/12/03	   Lachmar Subsidy Costs for Per Diem               Subsidy audit
                          Calculations, Maritime
                          Administration
MA-1998-046   97/12/12    OMI Maintenance & Repair Costs                   $4,953 questioned
MA-1998-076   98/02/11    Farrell Lines Asbestosis Claims                  $150,052 questioned

MA-1998-047   97/12/15	   American President Lines, Ltd                    $430,225 better use
                          Asbestosis Claims, Oakland, California


                                                           46
CONTRACT AUDITS - 11 Reports
                                                                                       FOCUS OF FINDINGS/
REPORT        DATE        SUBJECT                                                      RECOMMENDATIONS:
MA-1998-037   97/12/03    Atlas Marine Company Subsidy Costs, Lake Success, New York   Subsidy audit
MA-1998-038   97/12/04	   First American Bulk Carrier Corp., Edison, New Jersey        Subsidy reconciliation
                          Subsidy Cost Determinations
MA-1998-077   98/02/11	   Interocean Ugland Management Corp., Voorhees, New Jersey     $2,140 questioned
                          National Shipping AuthorityAgreement
MA-1998-008   97/11/06	   Ocean Chemical/Transport                                     Subsidy reconciliation
                          Carriers, Inc. Operating,
                          Differential Subsidy Claims, Houston, Texas
MA-1998-033   97/12/01	   Otto Candies and American                                    $4,541,487 questioned
                          Gulf, Inc. Preference Cargo, Des Allemands, Louisiana
MA-1998-034   97/12/03	   Dixie Carriers, Inc. Operating                               Subsidy reconciliation
                          Differential Subsidy Claims, Belle Chaise, Louisiana
MA-1998-035   97/12/03	   Canal Barge Company, Inc.,                                   $307,479 questioned
                          Preference Cargo, New Orleans, Louisiana
MA-1998-083   98/02/23	   Pacific Gulf Marine National                                 Subsidy audit
                          Shipping Authority Contract, Gretna, Louisiana
MA-1998-081   98/02/17	   Brookville Shipping Subsidy Cost                             Subsidy audit
                          Determinations, New York, NY
MA-1998-082   98/02/17	   ML Barge Pool III Partners                                   Subsidy audit
                          Review of Financial Documents, New York, NY
MA-1998-094   98/03/23	   Liberty Maritime Corporation                                 $82,255 questioned
                          Cargo Preference, New York, NY




                          OFFICE OF THE SECRETARY OF TRANSPORTATION

INTERNAL AUDITS - 7 Reports
                                                                                       FOCUS OF FINDINGS/
REPORT          DATE           SUBJECT                                                 RECOMMENDATIONS:

FE-1998-049   97/12/16	   Selected Chief Information Officer                           Cost, schedule, and
                          Functions                                                    performance goals
FE-1998-053   97/12/18	   Assessing the Year-2000 Computer                             Continuity of operations
                          Problem
MA-1998-004   97/11/04	   Government Credit Card Program                               More effective acquisitions
                          Departmentwide
AV-1998-086   98/02/24	   Passenger Origin-Destination Data                            New data-collection process
                          Submitted By Air Carriers
MA-1998-073   98/02/05	   Transportation Administrative                                Better administrative support
                          Service Center
FE-1998-105   98/03/31	   Fiscal Year 1997 Financial                                   Better financial management
                          Statements, DOT
FE-1998-103   98/03/30    Air Carrier Arrival Data, DOT




                                                          47
OTHER - 2 Reports
                                                                           FOCUS OF FINDINGS/
REPORT          DATE            SUBJECT                                    RECOMMENDATIONS:
MA-1998-022   97/10/21	   Management Advisory on Civil Rights              Better personnel practices
                          Matters (Sexual Harassment)
                          Involving FAA
MA-1998-028   97/11/26	   Internal Controls Over Personal                  Protection of property
                          Property in TASCs Photography
                          Section



                                        UNITED STATES COAST GUARD

INTERNAL AUDITS - 3 Reports
                                                                           FOCUS OF FINDINGS/
REPORT          DATE            SUBJECT                                    RECOMMENDATIONS:

MA-1998-060   98/01/15    Maintenance Logistics Command                    More effective acquisitions
                          Procurement Activities
FE-1998-003   97/10/14	   Superfund Activities FYs 1995                    $83,559 unsupported
                          and 1996 U.S. Coast Guard
MA-1998-040   97/12/08    Inspection of Riverboat Casinos                  $36,675 questioned
                                                                           $1,000,000 better use



CONTRACT AUDITS - 1 Report

MA-1998-032   97/12/01    East Pascagoula River Bridge                     More effective acquisitions
                          Alteration Project Cost, Jacksonville, Florida



OTHER - 3 Reports

FE-1998-002   97/10/14	   Coast Guard Projects Funded With                 $22,000,000 better use
                          Operating Expenses
MA-1998-006   97/10/15	   Management Advisory: USCG Oversight              Improved environmental
                          of Private Sector Oil Spill                      safety
                          Response Capabilities
MA-1998-017   97/11/19	   Management Advisory on Small                     $487,000 better use
                          Arms Repair Facility



                                   FEDERAL TRANSIT ADMINISTRATION

GRANT AUDIT - POSTAWARD - 23 Reports
                                                                           FOCUS OF FINDINGS/
REPORT        DATE        SUBJECT                                          RECOMMENDATIONS:

QC-1998-020   97/10/16    Quality Control Review City of Boise             Better grantee oversight
QC-1998-111   97/10/09	   Quality Control Review-KPMG Peat                 Better grantee oversight
                          Marwick LLP Single Audit Massachusetts
                          Bay Transportation Authority

                                                            48
QC-1998-016   97/11/18    Southeastern Regional Transit                      Better grantee oversight
                          Authority, Fall River, Massachusetts
TR-1998-014   97/10/20    City of Chicago, Illinois                          Better grantee oversight
QC-1998-019   97/11/28    Department of Transportation and                   Better grantee oversight
                          Public Works, Santurce, Puerto Rico
QC-1998-029   97/12/01    Hillsborough Transit Authority, Tampa, Florida     Better grantee oversight
QC-1998-030   97/12/01    Department of Transportation and                   Better grantee oversight
                          Public Works Santurce, Puerto Rico
QC-1998-043   97/12/08    Municipality of Anchorage, Alaska                  Better grantee oversight
QC-1998-051   97/12/16    City of Madison, Wisconsin                         Better grantee oversight
QC-1998-055   98/01/06    Tri-County Metropolitan                            Better grantee oversight
                          Transportation District of Oregon, Portland
QC-1998-063   98/01/22    City of New York                                   Better grantee oversight
QC-1998-065   98/01/22    Port Authority of Allegheny County, Pennsylvania   Better grantee oversight
QC-1998-067   98/01/29    Bi-State Development Agency of                     Better grantee oversight
                          the Missouri-Illinois Metropolitan
                          District
QC-1998-070   98/02/03    Greater Cleveland Regional Transit                 Better grantee oversight
                          Authority
QC-1998-071   98/02/03    Southeastern Pennsylvania                          Better grantee oversight
                          Transportation Authority, Philadelphia
QC-1998-072   98/02/03    Metropolitan Dade County, Florida                  Better grantee oversight
QC-1998-084   98/02/24    Orange County Transportation                       Better grantee oversight
                          Authority, California
QC-1998-085   98/02/24    Tri-County Metropolitan                            Better grantee oversight
                          Transportation District of Oregon, Portland
TR-1998-023   97/10/24    Quality Control Review, Regional                   Better grantee oversight
                          Transit Authority, New Orleans, LA
TR-1998-024   97/10/24    Quality Control Review Fort Worth                  Better grantee oversight
                          Transit Authority
QC-1998-091   98/03/12    Los Angeles County Metropolitan                    Better grantee oversight
                          Transit Authority
QC-1998-102   98/03/30    New Jersey Transit Corporation, Newark             Better grantee oversight
QC-1998-096   98/03/25    Metropolitan Atlanta Rapid                         Better grantee oversight
                          Transit Corporation, Georgia

OTHER - 1 Report

TR-1998-039   97/12/08	   Controls Over Project Management                   Compliance with legislation
                          Oversight Program


                   SAINT LAWRENCE SEAWAY DEVELOPMENT CORPORATION
OTHER - 1 Report
                                                                             FOCUS OF FINDINGS/
REPORT          DATE           SUBJECT                                       RECOMMENDATIONS:

QC-1998-104   98/03/31    Quality Control Review of Fiscal                   None
                          Year 1997 Audited Financial
                          Statements, Saint Lawrence Seaway
                          Development Corporation




                                                         49
                   RESEARCH AND SPECIAL PROGRAMS ADMINISTRATION

OTHER - 1 Report
                                                              FOCUS OF FINDINGS/
REPORT         DATE        SUBJECT                            RECOMMENDATIONS:
TR-1998-100    98/03/27	   Departmental Actions Concerning    Effective program implementation
                           the Sanitary Food Transportation
                           Act of 1990




                                                    50
